                                                                                                                         /I


                                     n                                         n                                             I




       +PL.   SoN                                  NATIONAL SCIENCE FOUNDATION                                                   I
  <@!
                                                                                                                         I

                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS                                           I


   4
    0                                        CLOSEOUT MEMORANDUM
     ON rvo a<"

                                                                                                                     'I
 Case Number: I06090024                                                                       Page 1 of 1


                                                                                                                     I



         This investigation was initiated based upon a complaint alleging that a company1had submitted
         similar proposals to both NSF and another federal agency.2 The complaint also alleged that the
         company was receiving duplicate funding for the same project. The complainant alleged an NSF
         grant3was identical to another federal agency's grant.4                                  /I


         The proposals and final reports for both the NSF award and the other federal agency's awakd                             I
         were r e ~ i e w e d .It~was determined that the two proposals, although appeared to focus on a
         similar research, involved the design and development of separate and different type of
         instruments/devices.

         No further investigative efforts are required in this case.                                             t




         Accordingly, this case is closed.                                                                    I




                                                                                                              I


                                                                                                              I




                                                                                                             1


                                                                                                                                 I
                                                                                                             I




                                                                                                         lr




                                                                                                         Il

                                                                                                         I




                                                                                                         I




                                                                                                    11

                                                                                                    18




                                                                                                    I




NSF OIG Form 2 (1 1/02)                                                                            11
